No. 20-315

 

IN THE
Supreme Court of the Anited States

 

JOSE SANTOS SANCHEZ AND SONIA GONZALEZ,

 

Petitioners,
wv
ALEJANDRO N. MAYORKAS, SECRETARY OF HOMELAND SECURITY, ET AL.,
Respondents.
CERTIFICATE OF SERVICE

 

I, Brianne J. Gorod, do hereby declare that on March 1, 2021, as required by
Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the Brief
of Members of Congress as Amici Curiae in Support of Petitioners on counsel for each

party to the above proceeding as follows:

Jaime Winthuysen Aparisi Elizabeth B. Prelogar

8630 Fenton St., Ste. 925 Acting Solicitor General
Silver Spring, MD 20910 United States Dep’t of Justice
jaime@aparisi.com 950 Pennsylvania Ave. NW
(301) 562-1416 Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov
(202) 514-2217

Counsel of Record for Petitioners Counsel of Record for Respondenis
Jose Santos Sanchez, et al. Alejandro N. Mayorkas, Secretary of
Homeland Security, et al.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 1, 2021.

    

Brianne J.Gorod
Counsel for Amici Curiae
